Department of Homeland Security
   Ofﬁce of Inspector General



              Challenges Facing FEMA's 

            Disaster Contract Management





OIG-09-70                                   May 2009
                                                                  Office of Inspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 25028




                                     May 27, 2009

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports published as part of our oversight responsibilities to promote economy,
effectiveness, and efficiency within the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency’s disaster contract management. We contracted with the independent public
accounting firm of Foxx & Company to perform the audit. The contract required that Foxx
& Company perform its audit according to generally accepted government auditing
standards. Foxx & Company identified three areas where FEMA’s disaster contract
management should be improved. The report contains four recommendations addressed to
the Director, Acquisition Management Division.

Foxx & Company is responsible for the attached auditor’s report dated May 8, 2009, and
the conclusions expressed in the report.

The recommendations herein have been developed with the best knowledge available to
our contractor. We trust that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all who contributed to the
preparation of this report.




                                        Richard L. Skinner 

                                        Inspector General 

May 8, 2009

Mr. Matt Jadacki
Deputy Inspector General for Office of Emergency Management Oversight
Office of Inspector General
Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Mr. Jadacki:

Foxx & Company performed an audit of Selected FY 2007 Federal Emergency
Management Agency (FEMA) Disaster Contracts. The audit was performed according to
Task Order No. TPDFIGBPA070007, dated September 14, 2007.

This report presents the results of the audit and includes recommendations to help
improve the FEMA’s Acquisition Management Division’s management and oversight of
disaster contracting.

Our audit was conducted according to applicable Government Auditing Standards, July
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards, and included a review and report of program activities with a compliance
element. We did not perform a financial audit, the purpose of which would be to render
an opinion on the agency’s financial statements.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

FOXX & COMPANY



Martin W. O’Neill
Partner
Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5

   Contract Management System .......................................................................................5 

   Recommendation ...........................................................................................................9

   Management Comments and Contractor Analysis ........................................................9 


     Administration of Individual Contracts .........................................................................9 

     Recommendation .........................................................................................................17

     Management Comments and Contractor Analysis ......................................................18


     Communications and Knowledge Transfer .................................................................19 

     Recommendation .........................................................................................................21

     Management Comments and Contractor Analysis ......................................................21


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................22 

     Appendix B:           Management Comments on the Draft Report ......................................24 

     Appendix C:           Contract Cost Increases........................................................................27 

     Appendix D:           List of Related Reports ........................................................................28 

     Appendix E:           FEMA Organization Chart...................................................................30 

     Appendix F:           FEMA Acquistion Management Division Organization Chart ...........31 

     Appendix G:           Report Distribution ..............................................................................32 


Abbreviations
     AMD                   FEMA Acquisition Management Division 

     COTR                  Contracting Officer’s Technical Representative 

     DHS                   Department of Homeland Security 

     FAR                   Federal Acquisition Regulation 

     FEMA                  Federal Emergency Management Agency 

     FY                    fiscal year           

     GAO                   Government Accountability Office 

     JFO                   Joint Field Office           

     OIG                   Office of Inspector General 

     SOP                   Standard Operating Procedures 

     VAO                   Virtual Acquisition Office™

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                Foxx & Company audited a selected sample of the Federal Emergency
                Management Agency’s (FEMA’s) Acquistion Management Division
                fiscal year 2007 disaster contracts. The audit objectives were to assess
                FEMA’s management of the contracts; assess communications and
                coordination within FEMA regarding disaster contracts; evaluate
                safeguards against fraud, waste, and abuse; and assess the impact of
                deficiencies on the delivery of goods and services.

                FEMA’s tracking, managing, and monitoring of contracts needs
                improvement. Several contracts requested could not be found in a
                timely manner; some could not be found at all. Most of the contract files
                reviewed needed to have more documentation to demonstrate effective
                communications and knowledge transfer between contracting officials.

                FEMA was not in compliance with the Federal Acquisition Regulation
                or Acquisition Management Division’s contracting policies and
                procedures for emergency acquisitions for most of the contracts
                reviewed. More documentation was needed to explain the reasons the
                goods or services were acquired, provide evidence of competition, and
                document contractor performance. FEMA did not follow acquisition
                process safeguards such as including documentation justifying sole
                source awards, verifying proof of inspection of goods, or completing the
                checklists of required contract documentation.

                As a result, it was difficult to determine that contractors were
                performing as required or that FEMA was paying fair prices for goods
                and services. More oversight of the contracts is needed to provide better
                management control and preclude creating an environment that provides
                opportunities for fraud, waste, and abuse. FEMA recognizes these
                problems and has begun taking steps to correct these situations.

                We are making four recommendations that, if implemented, will result
                in improved contract management and decreased risk of fraud, waste,
                and abuse.

                FEMA’s response is summarized and evaluated in the body of this report
                and included in its entirety as Appendix B.



                 Challenges Facing FEMA’s Disaster Contract Management

                                        Page 1
Background
              State and local government agencies and organizations act as first
              responders to emergencies (natural and manmade). When state
              and local governments become overwhelmed by the size or scope
              of a disaster, state officials may request assistance from the federal
              government. President Carter issued Executive Order 12127 in
              July 1979 that merged many separate disaster-related federal
              functions into the Federal Emergency Management Agency
              (FEMA). Following the terrorist attacks of September 11, 2001,
              the Homeland Security Act of 2002 (Public Law 107-296)
              transferred FEMA to the newly formed Department of Homeland
              Security (DHS).

              To meet urgent needs in past disasters, FEMA’s tendency had been
              to acquire goods and services quickly, but with insufficient
              attention to costs, definition of requirements, and competition.
              Reports issued by Congress, the White House, federal Office of
              Inspectors General (OIG), and the Government Accountability
              Office (GAO), among others, identified issues including
              contracting deficiencies (see Appendix D).

              In fiscal year (FY) 2004, FEMA spent almost $1 billion for goods
              and services. Spending rose to almost $5 billion in FY 2005 and to
              more than $7 billion in FY 2006. Most of the increase in these 2
              years was attributable to the response to the 2005 Gulf Coast
              hurricanes. By FY 2007, FEMA’s overall spending had fallen to
              about $1.5 billion; for FY 2008, it was $1.8 billion (see Figure 1).




             Challenges Facing FEMA’s Disaster Contract Management

                                    Page 2
                         Figure 1: FEMA’s FY 2004–2008 Acquisition Spending


                                                 FEMA Acquisition Spending
                                  $8
                         Billions
                            of    6
                         Dollars
                                   4

                                   2

                                   0

                                    2004           2005            2006          2007           2008
                                                               Fiscal Year

                         Source: Federal Procurement Data System—Next Generation Data

                        With so much spending at stake, it is imperative that acquisition
                        officials take the steps necessary to ensure successful disaster
                        contracting outcomes. Documentation and information on each
                        contracting action required by the FAR must be in place to provide
                        a complete history of the contract process, and serve as a basis and
                        support for acquisition decisions. This is the focus of our report.
                        Recent audits and congressional testimony have identified
                        deficiencies, as well as opportunities for improvement, in other
                        aspects of FEMA's disaster acquisition process. 1

                        To illustrate, an August 2008 OIG report stated FEMA could
                        improve the operation and control of its Individual Assistance-
                        Technical Assistance Contracts (IA-TACs; tasks include
                        construction of temporary sites for trailers and mobile homes to
                        house disaster victims) by employing an adequate number of staff
                        to:
                            • conduct adequate acquisition planning, 

                            • obtain timely cost/price analyses prior to contract award, 

                            • perform contract monitoring, 

                            • inspect and accept goods and services, and 

                            • hold contractors compliant to terms of contracts. 2


1
 See Appendix D. 

2
 DHS OIG, Hurricane Katrina Temporary Housing Technical Assistance Contracts, OIG-08-88, August 

2008.


                       Challenges Facing FEMA’s Disaster Contract Management

                                              Page 3
                         With respect to Hurricane Katrina relief funds obligated to IA-
                         TACs in 2006, this report cited “uncontrolled growth in the
                         amount of the funds obligated and expended under the contracts,”
                         questioned “how FEMA determined that the amounts invoiced
                         were allowable and reasonable,” and stated that the acquisition
                         “environment provided opportunities for fraud, waste, and abuse to
                         occur.” In addition, the report stated that the reviewed contracts
                         had insufficient or missing documentation and that it was unclear
                         how FEMA determined whether contractor invoices were
                         allowable and reasonable. 3

                         According to congressional testimony in September 2008, GAO
                         identified DHS acquisition oversight as needing improvement and noted
                         “cases in which DHS components lacked the capacity to oversee
                         contractor performance due to limited expertise and workload demands.”
                         GAO also stated that none of the oversight plans and contract documents
                         they reviewed contained specific measures for assessing contractor
                         performance. Additionally, GAO noted that improving acquisition
                         outcomes has been an ongoing challenge since DHS was established in
                         2003. 4

                         An OIG report issued in February 2009 on internal controls in
                         FEMA’s disaster acquisition process called for implementation of
                         additional safeguards to protect assets and prevent and detect
                         errors. 5 Another OIG report recommended implementation of an
                         oversight process to improve the efficiency and effectiveness of
                         FEMA’s acquisition program and creation of systems to document
                         and share useful “lessons learned” throughout the acquisition
                         function. 6

                         For this audit, DHS OIG contracted with Foxx & Company to
                         evaluate the effectiveness of FEMA’s disaster contract
                         management. The audit objectives were to:

                             •	 Assess FEMA’s ability to track, manage, and monitor non-
                                Gulf Coast disaster contracts;
                             •	 Determine what safeguards were included to reduce, deter,
                                and detect fraud, waste, and abuse;


3
  DHS OIG: Hurricane Katrina Temporary Housing Technical Assistance Contracts, OIG-08-88, August 

2008. 

4
  GAO: Department of Homeland Security: Progress and Continuing Concerns with Acquisition 

Management, GAO-08-1164T, September 17, 2008. 

5
  DHS OIG: Internal Controls in FEMA’s Disaster Acquisition Process, OIG-09-32, February 2009. 

6
  DHS OIG: FEMA’s Implementation of Best Practices in the Acquisition Process, OIG-09-31, February

2009. 


                       Challenges Facing FEMA’s Disaster Contract Management

                                               Page 4
                   •	 Assess the level of communication and coordination within
                      FEMA regarding disaster contracts; and
                   •	 Assess to what extent processes and controls have not been
                      followed and determine their impact on the delivery of
                      goods and services.

               We reviewed 32 FY 2007 disaster contracts for compliance with
               the FAR and with supporting and pertinent Acquisition
               Management Division (AMD) policies and procedures. [In
               January 2009, the Office of Acquisition Management was renamed
               the Acquisition Management Division as part of a FEMA
               Management Directorate realignment. See Appendix F for
               updated organization chart.]

Results of Audit
               FEMA was not following pertinent FAR requirements or AMD’s
               contracting policies and procedures for emergency acquisitions for
               most of the contracts reviewed. Several contracts requested were
               not located in a timely manner and some could not be found. For
               the contracts we reviewed, more documentation was needed to
               demonstrate that FEMA was effectively tracking, managing, and
               monitoring contracts. Furthermore, additional documentation was
               needed to demonstrate effective communications and knowledge
               transfer between contracting officials.

               Although these deficiencies are substantial, we were unable to
               determine the impact of these deficiencies on the delivery of goods
               and services because of the lack of documentation.

               FEMA contracting officials agreed that improvements are needed
               in its management and administration of disaster contracts and they
               are correcting deficiencies and improving compliance with the
               FAR and FEMA’s policies and procedures.

     Contract File Management System
               FEMA’s AMD needs an effective contract management system to
               identify, manage, or monitor the contracts. It did not have a
               consolidated list of disaster contracts awarded in FY 2007 readily
               available and it took more than a month for AMD to compile one.




              Challenges Facing FEMA’s Disaster Contract Management

                                     Page 5
                            FAR requirements:

                                 •	 Section 4.801(a)-(b): The head of each office performing
                                    contracting, contract administration, or paying functions
                                    shall establish files containing the records of all contractual
                                    actions. The documentation in the files shall be sufficient
                                    to constitute a complete history of the transaction.
                                 •	 Section 4.802(d): If the contract files or file segments are
                                    decentralized to various organizational elements or to other
                                    outside offices, responsibility for their maintenance must be
                                    assigned. A central control and, if needed, a locator system
                                    should be established to ensure ability to locate promptly
                                    any contract file.

                            To enable efficient access to FEMA’s contracts, FEMA should
                            develop a contract management
                            system that includes a locator       A senior AMD
                            system capable of ensuring that      management official said
                            contract files can be located in a   that “Lots of files are
                            timely manner. Currently,            missing—probably 30%.”
                            individual contracting officials
                            maintain contracts. 7 After we selected a sample of contracts to
                            review, it took AMD more than 2 months to provide the 32
                            contracts. Two of the contracts could not be located and substitute
                            contracts had to be selected; however, the first substitute contract
                            could not be located and another had to be selected. None of the
                            files were in electronic format, which would have made them more
                            accessible.

                            Contracting officials did not follow AMD standard procedures or
                            guidance for safeguarding contract documentation, including
                            securing files in locked rooms or cabinets. Field offices and
                            headquarters had facilities where files could be secured; however,
                            some contract files were kept in or on unsecured desks. In several
                            instances, contract files were stored in open boxes on the floor of a
                            cubicle.

                            FEMA officials acknowledged the problem of contracts not being
                            organized, inventoried, or available. They cited the following
                            reasons for contract unavailability:

                                 •	 Contracting officials kept the contracts at their desks or in
                                    their own filing cabinets.

7
  Contracting officials include contracting officers, contract specialists, and contracting officer’s technical
representatives (COTRs). Previously, some COTRs were called project officers.

                          Challenges Facing FEMA’s Disaster Contract Management

                                                     Page 6
                                 •	 Some of the contract files may have been lost or misplaced
                                    in AMD’s move to Patriots Plaza. 8
                                 •	 Field staff said that when closing Joint Field Offices
                                    (JFOs), contract files were often returned to the regional
                                    offices in multiple folders that should have been
                                    consolidated by the regional office staff to provide the
                                    complete contract file.

                             During the course of our audit, senior management acknowledged
                             their concern about the agency’s delay in providing the list of
                             requested contracts. One of the officials said that AMD wanted to
                             ensure the contracting specialists were providing “the files
                             requested and not to accept
                             any excuses that the files were
                                                                 The contracting official who
                             lost and could not be
                                                                 initiated the centralized file
                             provided.” Another official         room project said she
                             said that they were tracking        “began this effort due to her
                             whether contracting officials       frustration of not being able
                             were being responsive to our        to locate contract files.”
                             requests or “if someone is
                             holding out or using a lost file
                             excuse” to avoid providing the file.

                             FEMA is in the process of creating a centralized file room and
                             inventory system for contracts maintained at its headquarters. It
                             assembled a team of FEMA and contractor staff in April 2008 for
                             this project. The contracting official leading this project said
                             “There was no formal system in place and no one was responsible
                             for centrally managing or monitoring the contract files.” By
                             October 2008, more than 80% of the contract files were filed in the
                             centralized file room and recorded in an electronic database. The
                             project team is currently completing training for each of 60 AMD
                             contracting specialists on how to manually and electronically
                             retrieve contract files and records. In addition, AMD’s Strategic
                             Scorecard includes an initiative to “design, develop, and
                             implement a contract file management system in electronic and
                             paper format” to achieve the outcome of having an “Effective End­
                             to-End Knowledge & Information Management Enterprise.”




8
  AMD moved in July 2007 from FEMA headquarters at 500 C Street S.W., Washington, DC, to AMD’s
current location at Patriots Plaza, 395 E Street, S.W., Washington, DC. At the time of the move, no
centralized location for the contract files existed at either location and all files arrived at Patriots Plaza in
the boxes used to move them from their former site.


                           Challenges Facing FEMA’s Disaster Contract Management

                                                      Page 7
 Figure 2: AMD Contract File Room Before the Centralized
 File Room Project




 Source: FEMA

 Figure 3: AMD Contract File Room After Organization
 Project




 Source: FEMA




Challenges Facing FEMA’s Disaster Contract Management

                       Page 8
           Conclusion

           The inability to locate contract files hampers FEMA’s ability to
           ensure that contractors have fulfilled their obligations and that the
           government is meeting its contract administration responsibilities.
           Compliance with the FAR’s requirements for Government
           Contract Files, subpart 4.8, and relevant policies provides agencies
           with an increased level of assurance that the quality and
           completeness of their contract monitoring activities will result in
           satisfactory acquisition outcomes.

     Recommendation
           We recommend that the Administrator of FEMA:

           Recommendation #1: Complete establishment of the electronic
           file management system that includes a locator system that will
           enable users to locate contract files in a timely manner. Once the
           file management system is established, FEMA should begin
           storing contract files electronically.

     Management Comments and Contractor Analysis
           FEMA concurred with recommendation 1. FEMA said that senior
           leadership within the Acquisition Management Division, Management
           Directorate, is engaged in discussions regarding funding for an electronic
           contract file management system. If sufficient funds are available, a
           contract for the system could be awarded before the end of FY 2009.

           We consider FEMA’s planned action responsive to the
           recommendation. The recommendation is resolved and open
           pending FEMA’s implementation of an electronic contract file
           management system.

Administration of Individual Contracts
           FEMA needs a contract management system that allows for
           effective management of individual disaster contracts. FEMA
           needs to improve and enhance its processes and procedures to
           enable it to track whether:

               •	 Required source selection procedures were followed,
               •	 Appropriate evaluations and oversight of contractor
                  performance and FEMA contracting officials were
                  performed, or

          Challenges Facing FEMA’s Disaster Contract Management

                                 Page 9
     •	 Increases in contract price or the quantities of goods or
        services required from those originally negotiated were
        justified.

 It was difficult to determine whether contracts were effectively
 managed and monitored or whether appropriate controls to prevent
 waste, fraud, or abuse were in place.

 Section 4.801(b) of the FAR states that the documentation in the
 contract files shall be sufficient to constitute a complete history of
 the transaction for the purpose of:

     •	 Providing a complete background as a basis for informed
        decisions at each step in the acquisition process,
     •	 Supporting actions taken,
     •	 Providing information for reviews and investigations, and
     •	 Furnishing essential facts in the event of litigation or
        congressional inquiries.

 Of the 32 contracts sampled, evidence of sound contract
 management, oversight, and documentation was lacking. The
 documentation was incomplete and inconsistent. For example, the
 file for a software upgrade, licenses, and support contract worth
 more than $1 million consisted only of a 10-page task order.
 According to section 4.802(a) of the FAR, contract files should
 among other things, document the basis for the acquisition and the
 award, the assignment of contract administration including
 payment responsibilities, and any subsequent actions taken by the
 contracting office. FEMA needs to ensure that the documentation
 in the files is sufficient to constitute a complete history of the
 contracting transactions.

 Source Selection Process

 About 30% of the contract files contained enough information to
 explain the source selection process and justification for the
 contractor selected. Two-thirds of the files contained insufficient
 information to enable us to ascertain if the contracts had been
 competitively awarded. As a result, the extent to which FEMA
 complied with FAR requirements concerning competitive
 procurements could not be determined.

 Section 6.303-1(a) of the FAR states “A contracting officer shall
 not commence negotiations for a sole source contract, commence
 negotiations for a contract resulting from an unsolicited proposal,
 or award any other contract without providing for full and open

Challenges Facing FEMA’s Disaster Contract Management

                       Page 10
 competition unless the contracting officer (1) Justifies, if required
 in 6.302, the use of such actions in writing; (2) Certifies the
 accuracy and completeness of the justification; and (3) Obtains the
 approval required by 6.304.”

 Information on the source selection process, such as a request for
 proposal, bid analysis, or similar documentation should be
 included in the contract file in accordance with guidance in the
 FAR. In many instances, the sole source or limited source
 justification was missing or not well documented. For example,
 one contract file contained price proposals from the successful
 contractor, but no information on the solicitation of other
 contractors’ proposals or how the price was determined to be
 reasonable. Competition is critical to ensuring that the government
 obtains the best value (in product or service and price) under the
 contract.

 In addition, Section 9.103(a)-(b) of the FAR states, “Purchases
 shall be made from, and contracts shall be awarded to, responsible
 prospective contractors only” and “No purchase or award shall be
 made unless the contracting officer makes an affirmative
 determination of responsibility.”

 Although the FAR states that contracts shall be awarded to
 responsible prospective contractors only, there was little evidence
 that contracting officials assessed the capabilities of prospective
 contractors. The government is at risk if the contractor does not
 have adequate resources, a satisfactory performance record,
 technical skills, or the ability to comply with the proposed delivery
 or performance schedule.

 Contractor Performance Monitoring and Oversight

 Effective monitoring and oversight is necessary to ensure that
 FEMA receives the goods and services for which it contracted.
 Monitoring and oversight are critical elements of the federal
 procurement process and encompass all interactions between the
 government and its contractors from the time contracts are
 awarded to closeout.

 AMD did not perform systematic or periodic reviews to identify
 deficient procurement practices and contract management
 procedures. Therefore, FEMA had little assurance that the terms
 of the contracts were properly enforced or that adequate oversight
 existed to ensure contractor compliance with statement of work
 requirements or specifications. Performing systematic or periodic

Challenges Facing FEMA’s Disaster Contract Management

                       Page 11
 reviews is especially important in light of the significant number of
 contract management staff hired over the past 2 years who have
 little disaster contracting experience.

 Several experienced AMD contracting officials said that
 improvements were needed in contract management, such as
 implementing more policies and standard operating procedures,
 ensuring consistency in headquarters and regional office
 operations, and having better communications and contract file
 management training. They also said that there was a need for
 more supervisory contract reviews as an incentive for staff to be
 more conscientious and attentive to contract file details and
 requirements. In addition, while recently there have been
 substantial hiring increases in AMD, the new acquisition personnel
 have had little disaster contracting experience and most have not
 had the opportunity to contract for goods and services in
 emergency or disaster-related situations.

 Although several officials stressed the importance of conducting
 supervisory contract reviews to provide instruction and ensure
 compliance, these reviews were not being performed. One senior
 management official said that a FEMA headquarters analyst used
 to perform reviews to ensure contract file compliance. One senior-
 level manager said that these reviews are essential; he conducted a
 contract review at a regional office in August 2008 and found that
 “the files were in disarray and current policies and procedures were
 not being followed.” This official said that AMD did not have
 travel funds to perform further reviews in FY 2008, but hoped to
 have travel funds in FY 2009 to complete two reviews per regional
 office per year.

 The lack of formal contract documentation reviews prevents the
 identification of deficiencies in policies, procedures, and practices
 and does not alert management to potential areas of vulnerability,
 areas needing improvement, or training needs. Performance
 evaluations from monitoring and oversight activities are essential
 to identifying a contractor’s adherence to schedules, ability to
 forecast and control costs, and commitment to satisfying the
 government’s specifications. Perhaps more important, evaluations
 identify and document substandard contract performance, which
 can protect the government in the event of litigation.




Challenges Facing FEMA’s Disaster Contract Management

                       Page 12
 Significant Contract Funding Increases

 Significant increases in the amount of federal funds obligated and
 spent occurred after negotiation of the initial contract costs in
 many of the contracts reviewed in our audit. However,
 explanations for the increases were not discernable in the contract
 documentation. In addition, it could not be determined if such
 increases violated competition requirements for federal
 acquisitions.

 The contracts we reviewed did not provide documentation on why
 costs were increased. Figures 4-6 illustrate some of these increases
 by dollar amount. (See Appendix C for a consolidated summary of
 the contract cost increases.)

 Figure 4: Contract Costs Less Than $100,000


                            Disaster Contract Increases

                 $100
     Thousands




                  $80
                  $60
                                                                     Original
                  $40                                                Contract
                                                                     Amount
                  $20                                                Total
                                                                     Funded
                   $0
                          Pad          Ice    Copier         IT
                        leases                leases      support*
                             *Information Technology support


   Source: Foxx & Company using FEMA data




Challenges Facing FEMA’s Disaster Contract Management

                             Page 13
  Figure 5: Contract Costs between $100,000 and $500,000


                                     Disaster Contract Increases
                        $500




            Thousands
                        $400

                        $300                                                                          Original
                                                                                                      Contract
                        $200                                                                          Amount
                                                                                                      Total
                        $100                                                                          Funded

                          $0
                                                                                                  *
                                  ity      ing war
                                                     e          se           se         es     AC
                             c ur       lt                 le a         le a          s       T
                                      u        rd                                   a
                           Se ons            ha
                                                         e            e          le        IA
                                C                  f fic        f fic       i ng
                                          IT      O           O         us
                                                                    Ho
                            *Individual Assistance Technical Assistance Contracts


   Source: Foxx & Company using FEMA data

  Figure 6: Contract Costs More Than $500,000


                                        Disaster Contract Increases

                    $4.5
      Millions




                    $4.0
                    $3.5
                    $3.0                                                                              Original
                    $2.5                                                                              contract
                                                                                                      amount
                    $2.0                                                                              Total
                    $1.5                                                                              Funded

                    $1.0
                    $0.5
                    $0.0
                                Trailer set up             PA TAC*                 IT support
                               *Public Assistance Technical Assistance Contracts


   Source: Foxx & Company using FEMA data

 Increases in contract costs over the contract term are a concern and
 raise several questions, including:

Challenges Facing FEMA’s Disaster Contract Management

                                        Page 14
     •	 Were the increases justified?
     •	 Did the government receive a fair return for what it
        eventually paid?
     •	 Why were FEMA contracting officers unable to better
        determine the true cost of goods or services being procured
        prior to the contract award?

 A related concern is whether artificially low initial contract 

 estimates limit competition. For 

 example, if FEMA initially 
           A contracting officer wrote
 solicited proposals for a $50,000     “We have to get the three
 contract, some companies or           folders (contract files) ready
 suppliers might have chosen not       for review. Let’s get COTR
 to bid. However, if the same          letters in there and etc . . . .
 companies or suppliers knew           add any other things that are
 that the contract cost would          required.”
 ultimately be four or five times
 higher, they might have submitted bids. By limiting competition in
 this manner, the government may not be getting the best value.

 There may be valid reasons for increases in contract prices. For
 example, extensions to leases for trailer pads that house disaster
 victims may be needed if alternative housing cannot be found.
 However, such reasons should be documented in the contract file.
 For most of the files we reviewed, adequate documentation for the
 increases was not apparent. Contract files did not include evidence
 that FEMA contracting officials considered re-competing contracts
 in view of the significant increases experienced, thus missing
 opportunities for increased competition and lower prices.

 Contract Documentation

 The contracting officer’s technical representative (COTR) provides
 both technical and project management oversight during the
 contract lifecycle. Effective COTR performance is one of many
 factors that enhance the relationship between the contractor and
 government agency by adding value, fostering greater partnership,
 and promoting mutual attainment of business objectives.

 According to FEMA contracting guidance, each contract file
 should contain a letter designating the COTR and defining his or
 her responsibilities. Over 50% of the contract files did not contain
 the required COTR letters. In addition, the files did not contain
 enough information to properly document the COTR’s activities.


Challenges Facing FEMA’s Disaster Contract Management

                       Page 15
 Missing documentation from the contract files can lead to the
 inability to track the history and rationale for contract decisions.
 About 44% of the contracts reviewed did not contain
 documentation that properly explained the need for the goods or
 services purchased. We also found that subsequent to our request
 for the contracts, documentation was added to some of the contract
 files to make the files more complete. Three contracts included in
 our sample that closed in mid-2007 contained documents, dated
 June 2008, that FEMA personnel inserted into the contract files.

 Prompt contract closeout is critical to ensure that all government
 debts are paid and unneeded funds are de-obligated and made
 available for other uses. Although most of the contracts in our
 sample appeared to be completed, only 9 of the 32 contained
 closeout forms. Closeout forms and other required documents are
 specified in the FAR and in FEMA’s contracting guidance. Figure
 7 provides examples of the missing documentation that should be
 provided in accordance with FAR Subpart 4.8 and FEMA
 guidance.

 Figure 7: Missing File Documentation for the 32 Contracts
 Reviewed

    Contract File Documentation            Number of     Number of
                                            files with  files without
                                         documentation documentation
  Information on the source selection            9            23
  process
  Letter designating the COTR and               14           18
  defining his or her responsibilities
  Documentation properly                        18           14
  explaining the need for the goods
  or services purchased
  Contractor performance                        0            32
  evaluations or measures for
  assessing contractor performance
  Contract closeout forms                       9            23

  Source: Foxx & Company




Challenges Facing FEMA’s Disaster Contract Management

                       Page 16
                           Conclusion

                           Overall, management’s control environment for ensuring
                           compliance with federal requirements was weak. Management did
                           not routinely review contract files and did not ensure compliance
                           throughout the organization. As a result, contract management and
                           contract file contents varied by office and by contracting official.
                           Also, the history of contract actions and decisions could not be
                           identified.

                           This confirms some of the findings contained in another recently
                           issued report on FEMA’s acquisition internal controls. 9 That
                           report stated that many files could not be located, AMD did not
                           have a standardized approach to documentation and file
                           maintenance, and supervisors did not hold contracting officers
                           accountable for maintaining contract files. We reiterate the
                           recommendation in that report that the Director, AMD, require
                           supervisors to monitor contract file maintenance and hold
                           contracting officers and specialists accountable by including in the
                           annual performance evaluation process an assessment of their
                           contract file maintenance activities. In addition, we make the
                           following recommendations.

                   Recommendations
                           We recommend that the Administrator of FEMA:

                           Recommendation #2: Issue guidance reinforcing employees’
                           duty to comply with Federal Acquisition Regulation requirements
                           for contract files so that each file provides a history of all
                           contractual activities and an explanation of source selection,
                           degree of competition, contractor performance, reasons for cost
                           increases, scope changes, and determination of price
                           reasonableness. The documentation should include explanatory
                           memos, notes, email messages, and correspondence, as well as
                           references to other files or locations that contain information
                           supporting the acquisition.

                           Recommendation #3: Ensure compliance with existing contract
                           file maintenance regulations, policies, and procedures and provide
                           a strong control environment in headquarters, regional offices, and
                           field offices by:

                               •    Conducting periodic reviews of contract files,

9
    DHS OIG: Internal Controls in the FEMA Disaster Acquisition Process, OIG-09-32, February 2009

                          Challenges Facing FEMA’s Disaster Contract Management

                                                 Page 17
                               •	 Requiring that files provide an explanation for contracting
                                  decisions and actions, and
                               •	 Initiating training programs designed to emphasize the
                                  importance of maintaining contract documentation
                                  consistent with federal requirements and agency policy.

                   Management Comments and Contractor Analysis
                           FEMA concurred with recommendation 2. FEMA issued in
                           August 2008 a Standard Operating Procedure (SOP), Labeling and
                           Organizing Official Contract Files, which instructed employees to
                           prepare and maintain relevant acquisition documents supporting all
                           award and modification decisions and actions. The contract file
                           checklist attached to the SOP identifies the acquisition documents
                           to be included in the contract files as well as their location within
                           the six part file.

                           We consider the SOP FEMA issued in August 2008 responsive to
                           the recommendation. We consider the recommendation resolved
                           and closed.

                           FEMA concurred with recommendation 3. In November 2008,
                           FEMA finalized a draft SOP for the internal audit of contract files.
                           During the period January through March 2009, FEMA stated that
                           it conducted the first internal audit of approximately 80 FY 2009
                           contract awards and modifications to FY 2009 contract awards in
                           Headquarters and throughout the regions. The reviews also
                           included interagency agreement files. These internal audits of
                           contract files will be conducted at least every quarter through the
                           end of 2009. Reports from each quarter’s internal audit will be
                           used as the basis to inform contract specialists and contracting
                           officers of contract file deficiencies.

                           We consider FEMA’s planned action responsive to the
                           recommendation. However, the internal audits of contract files
                           should be established as an on-going, periodic review with no end
                           date. In addition, the OIG should receive copies of these quarterly
                           reports. Furthermore, as recommended in a recent OIG report,
                           FEMA should require supervisors to monitor contract file
                           maintenance and hold contracting officers and contracting
                           specialists accountable by including, in the annual performance
                           evaluation process, an assessment of their contract file
                           maintenance activities. 10 The recommendation is resolved and

10
     DHS OIG, Internal Controls in the FEMA Disaster Acquisition Process, OIG-09-32, February 2009


                          Challenges Facing FEMA’s Disaster Contract Management

                                                 Page 18
                           open until a policy is established to provide an ongoing, periodic
                           review of contract files with no end date.

         Communications and Knowledge Transfer
                           According to FAR Section 4.801(b), the documentation in the
                           contract files shall be sufficient to constitute a complete history of
                           the transaction. Specifically, Section 4.802 (c) states that files
                           must be maintained at organizational levels to ensure (1) effective
                           documentation of contract actions; (2) ready accessibility to
                           principal users; (3) minimal establishment of duplicate and
                           working files; (4) the safeguarding of classified documents; and
                           (5) conformance with agency regulations for file location and
                           maintenance.

                           Most of the 32 contracts sampled had multiple contracting officials
                           assigned during the contract period. Contracting officials said that
                           the lack of effective communications and insufficient knowledge
                           transfer, coupled with inadequate and inconsistent documentation
                           in the contract files, made it difficult to effectively manage
                           contracts.

                           Significant transfers of contracts occur because of the nature of
                           FEMA’s disaster management mission and the need to rotate staff.
                           In addition, as Joint Field Offices (JFOs) close, responsibility for
                           managing contracts is transferred from location to location and
                           from person to person during the life of the acquisitions. 11 High
                           turnover rates within the AMD also result in contract files being
                           reassigned to multiple contracting officials.

                           To maintain continuity and accomplish knowledge sharing within
                           FEMA, as well as with contractors, it is important that the recipient
                           of a contract transfer be able to quickly understand the contracting
                           decisions and the history of the acquisition. Accordingly,
                           communications that occur during the acquisition process must be
                           properly documented to transfer the knowledge needed to contract
                           file recipients.



11
   When a disaster is declared, the Secretary of Homeland Security, in coordination with other federal
departments and agencies, initiates actions to respond to and recover from the incident, including the
establishment of a JFO. Within the JFO, senior federal representatives form a multiagency coordination
entity and direct staff to share information, aid in establishing priorities among incidents and associated
resource allocation, and provide strategic coordination of various federal incident management activities.
As the need for full-time interagency coordination at the JFO ceases, the JFO releases federal resources and
transfers remaining responsibilities and documentation to the appropriate FEMA field offices.

                         Challenges Facing FEMA’s Disaster Contract Management

                                                  Page 19
 The contract files we reviewed did not contain sufficient
 documentation to demonstrate effective communication and to
 facilitate reassignment to new contracting officials. For example,
 two contracting officers who inherited files from other contracting
 officers said that it was impossible to understand what was going
 on with the contract by reviewing existing documentation.
 Although FEMA developed contract file checklists to help manage
 the contracts, 22 of the 32 files—about 70%—did not include
 checklists.

 Contract management responsibilities were reassigned to different
 contracting officials due to
 turnover within AMD, as well       An official said for one
 as the rotation policy at JFOs.    contract that it “…got
 Responsibility for some of the     dumped to my desktop
 contracts in our sample had        because no one ‘owned’
 been assigned to contracting       it.”
 officials without their 

 knowledge. When we 

 questioned these contracting officers, they could not answer 

 questions about the contracts. 


 Transfers between contracting officials without appropriate
 documentation make it difficult for the receiving contracting
 official to effectively manage the contracts. He or she may not be
 readily able to understand:

     •	 How or why decisions were made,
     •	 How to enforce the terms of the contract without vital
        contract information,
     •	 The status of delivery of goods or services,
     •	 Funds paid to date,
     •	 Outstanding issues with the contractor, if any, and
     •	 The oversight steps that should be performed.

 In September 2008, AMD issued a SOP that established FEMA
 acquisition policy regarding transferring disaster contract files
 from a JFO to the appropriate FEMA regional office. The
 procedure applies to all contract files created by procurement
 officials within a JFO in support of a disaster. It states that
 “Contract files will be transferred in a complete condition, will
 contain all documents in support of the particular acquisition, and
 will be transferred prior to the lead field contracting official’s
 departure.” The procedure includes a checklist that must be
 completed to ensure that the contract files and records are complete
 and ready for transfer to the appropriate regional office.

Challenges Facing FEMA’s Disaster Contract Management

                       Page 20
     We asked if AMD had similar procedures and checklists for
     transferring contracts within AMD from one contracting official to
     another and for completing the contract closeout process once all
     contractor billings had been paid. AMD officials stated that AMD
     did not have such procedures or checklists, but said that these
     would be added to the list of procedures to draft and issue.

     Conclusion

     Contract files were frequently transferred between contracting
     officials. The transfers were made without effective
     communications or sufficient knowledge transfer. In addition, the
     contract files generally did not include adequate or consistent
     documentation to provide receiving contract officials the
     knowledge necessary to effectively manage the contract.

Recommendation
     We recommend that the Administrator of FEMA:

     Recommendation #4: Develop a SOP for transitioning and
     closing contract files that requires a memorandum to provide the
     appropriate background and status information and a checklist for
     ensuring that the contract files are transferred in a complete
     condition and closed when all transactions are concluded.

Management Comments and Contractor Analysis

     FEMA has developed a SOP for contract close-outs that is nearing
     completion. FEMA has also drafted a SOP for the transfer of
     contract files from one contracting officer to another that is under
     review. Both SOPs are scheduled for finalization no later than
     May 15, 2009.

     We consider FEMA’s actions responsive to the recommendation.
     Once the SOPs are finalized and issued, we will consider the
     recommendation resolved and closed.




    Challenges Facing FEMA’s Disaster Contract Management

                           Page 21
Appendix A
Purpose, Scope, and Methodology


                          The purpose of this audit was to assess FEMA’s management of
                          disaster contracts. The FEMA disaster contracting function was
                          challenged in responding to the 2005 Gulf Coast hurricanes, the
                          nation’s most costly natural disasters, which killed more than
                          1,800 persons, destroyed more than 300,000 Gulf Coast homes,
                          and displaced about 1 million people.

                          FEMA has implemented a number of significant changes in its
                          acquisitions function since Hurricane Katrina. The DHS OIG audit
                          focus has been primarily on contracting in the Gulf Coast states
                          with less attention on contracts in other disasters. However,
                          between October 1, 2006, and September 30, 2007, the President
                          declared 65 major disasters, excluding those in Louisiana,
                          Mississippi, and Alabama. Also, in June 2007, FEMA had 18
                          Joint Field Offices in operation outside of those states.

                          The goal of the audit was to determine how effectively FEMA
                          managed disaster contracts outside of the Gulf Coast. The specific
                          objectives of the audit were to:

                              •	 Assess FEMA’s ability to track, manage, and monitor
                                 non-Gulf Coast disaster contracts;
                              •	 Determine what safeguards were included to reduce, deter,
                                 and detect fraud, waste, and abuse;
                              •	 Assess the level of communication and coordination within
                                 FEMA regarding disaster contracts; and
                              •	 Assess to what extent the FAR and AMD policies and
                                 procedures have not been followed and determine the
                                 impact on the delivery of goods and services.

                          The audit focused on a sample of 32 disaster contracts awarded
                          directly by FEMA in FY 2007 for disasters declared in states other
                          than Louisiana, Mississippi, and Alabama. FEMA is required to
                          adhere to contract management policies and procedures that are
                          promulgated in the FAR. 12 FEMA also is required to adhere to the
                          Homeland Security Acquisition Regulation and the Homeland
                          Security Acquisition Manual, Office of Federal Procurement Policy
                          guidance, and the Stafford Act. 13

12
   The FAR, codified in Title 48 of the United States Code of Federal Regulations, was developed pursuant
to the Office of Federal Procurement Policy Act of 1974 (Public Law 93-400), as amended by Public Law
96-83.
13
   FEMA’s statutory authority comes from the Robert T. Stafford Disaster Relief and Emergency Assistance
Act, as amended. The Stafford Act was enacted in 1988 (Public Law 100-707), and it amended the Disaster
Relief Act of 1974 (Public Law 93-288).

                        Challenges Facing FEMA’s Disaster Contract Management

                                                Page 22
Appendix A
Purpose, Scope, and Methodology



                   The sample included contracts awarded at FEMA headquarters in
                   Washington, DC, and at four FEMA regions:

                       •	   Region II (New York City, NY)
                       •	   Region III (Philadelphia, PA)
                       •	   Region VI (Denton, TX)
                       •	   Region VII (Kansas City, MO)

                   We also visited FEMA’s Disaster Finance Center in Mt. Weather, VA, to
                   obtain payment information on the contracts in our sample.

                   Eight contracts were selected from each of the four regions noted above.
                   The 32 contracts selected were based on (1) assessed risk, (2) OIG
                   recommendations, and (3) to the extent practicable, the ability to relate
                   the audit results to FEMA disaster contracting in general. Selection
                   factors included:

                       •	 Variety of contract type: time and materials, cost 

                          reimbursable, fixed price, and others 

                       •	 Dollar value: some large, medium, and small
                       •	 Geographic dispersion
                       •	 Scope and nature of the work
                       •	 Sole source or competitive
                       •	 Variety of contracting officers and contracting officer 

                          technical representatives. 


                   We conducted this performance audit according to generally
                   accepted government auditing standards (Government Auditing
                   Standards, July 2007 revision).

                   Our audit considered FEMA and AMD policies and procedures
                   implemented since the 2005 Gulf Coast hurricanes, as well as other
                   applicable federal acquisition requirements. At all of the locations
                   visited, we interviewed officials and obtained documentation to
                   verify changes or corrective actions taken. Field office work was
                   conducted from May to December 2008.




                  Challenges Facing FEMA’s Disaster Contract Management 


                                         Page 23 

Appendix B
Management Comments on the Draft Report




                 Challenges Facing FEMA’s Disaster Contract Management 


                                        Page 24 

Appendix B
Management Comments on the Draft Report




                 Challenges Facing FEMA’s Disaster Contract Management 


                                        Page 25 

Appendix B
Management Comments on the Draft Report




                 Challenges Facing FEMA’s Disaster Contract Management 


                                        Page 26 

Appendix C
Contract Cost Increases


                                 Contract Cost Increases
                                          Original
                                                         Total      Percentage
                        Services          Contract
                                                        Funded       Increase
                                          Amount
                Trailer Set-up              $94,250     $799,045         748%

                Pad Leases                   $1,200       $9,000         650%

                Ice                          $9,000      $63,200         602%

                Housing Leases             $135,000     $398,189         195%

                IT Support                  $29,996      $87,932         193%

                Copier Leases               $25,000      $73,000         192%

                Security                   $100,000     $235,657         136%

                IA TAC                     $236,337     $475,506         100%

                Office Lease               $222,561     $374,561          68%

                Consulting –
                                           $109,182     $157,181          44%
                Project Management

                Office Lease               $151,250     $214,129          42%

                PA TAC                   $2,180,000    $2,957,000         36%

                IT Hardware                $121,342     $150,770          24%

                IT Support               $3,313,577    $3,912,115         18%
                Source: Foxx & Company




                      Challenges Facing FEMA’s Disaster Contract Management

                                             Page 27
Appendix D
List of Related Reports and Testimony


DHS OIG, FEMA’s Implementation of Best Practices in the Acquisition Process, OIG­
09-31, February 2009

DHS OIG, Internal Controls in the FEMA Disaster Acquisition Process, OIG-09-32,
February 2009

DHS OIG, Challenges Facing FEMA’s Acquisition Workforce, OIG-09-11, November
2008

DHS OIG, Hurricane Katrina Temporary Housing Technical Assistance Contracts, OIG­
08-88, August 2008

DHS OIG, Costs Incurred for Rejected Temporary Housing Sites, OIG-08-86, August
2008

DHS OIG, Hurricane Katrina Multitier Contracts, OIG-08-81, July 2008

DHS OIG, Acquisition Workforce Training and Qualifications, OIG-08-56, May 2008

DHS OIG, FEMA’s Preparedness for the Next Catastrophic Disaster, OIG-08-34, March
2008

DHS OIG, FEMA’s Award of 36 Trailer Maintenance and Deactivation Contracts, OIG­
07-36, March 2007

DHS OIG, A Performance Review of FEMA’s Disaster Management Activities in
Response to Hurricane Katrina, OIG-06-32, March 2006

GAO, Department of Homeland Security: Progress and Continuing Concerns with
Acquisition Management, GAO-08-1164T, September 2008

GAO, Emergency Management: Observations on DHS's Preparedness for Catastrophic
Disasters, GAO-08-868T, June 2008

GAO, Department of Homeland Security: Better Planning and Oversight Needed to
Improve Complex Service Acquisition Outcomes, GAO-08-765T, May 2008

GAO, Department of Homeland Security: Better Planning and Assessment Needed to
Improve Outcomes for Complex Service Acquisitions, GAO-08-263, April 2008

GAO, Department of Homeland Security: Status and Accountability Challenges
Associated with the Use of Special DHS Acquisition Authority, GAO-08-471T, February
2008



                   Challenges Facing FEMA’s Disaster Contract Management

                                          Page 28
Appendix D
List of Related Reports and Testimony


GAO, National Disaster Response: FEMA Should Take Action to Improve Capacity and
Coordination between Government and Voluntary Sectors, GAO-08-369, February 2008

GAO, Department of Homeland Security: Improved Assessment and Oversight Needed to
Manage Risk of Contracting for Selected Services, GAO-07-990, September 2007

GAO, Homeland Security: Observations on DHS and FEMA Efforts to Prepare for and
Respond to Major and Catastrophic Disasters and Address Related Recommendations
and Legislation, GAO-07-1142T, July 2007

GAO, Catastrophic Disasters: Enhanced Leadership, Capabilities, and Accountability
Controls Will Improve the Effectiveness of the Nation’s Preparedness, Response, and
Recovery System, GAO-06-618, September 2006

GAO, Hurricane Katrina: Planning for and Management of Federal Disaster Recovery
Contracts, GAO-06-622T, April 2006




                    Challenges Facing FEMA’s Disaster Contract Management

                                           Page 29
Appendix E
FEMA Organization Chart




                Challenges Facing FEMA’s Disaster Contract Management 


                                       Page 30 

Appendix F
FEMA Acquisition Management Division Organization Chart




                 Challenges Facing FEMA’s Disaster Contract Management 


                                        Page 31 

Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Under Secretary, Management
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as appropriate




                           Challenges Facing FEMA’s Disaster Contract Management


                                                  Page 32 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
